  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General



      Federal and State Oversight of the 

      New York City Urban Area Security 

          Initiative Grant Program 





            DO NOT DISTRIBUTE WITHOUT OIG AUTHORIZATION

OIG-08-32                                                             March 2008
             Review of the Urban Areas Security Initiative Grant Program
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                         March 26, 2008


                                             Preface

The Department of Homeland Security Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General Act
of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

We assessed whether the Department of Homeland Security’s Office of Grants and Training and the
State of New York established effective oversight and program monitoring of Urban Area Security
Initiative grants awarded to the State of New York. The audit is based on interviews with employees
and officials of relevant federal, state, and urban area agencies, institutions, working groups, and
advisory committees; direct observations; and a review of applicable documents.

The recommendations herein have been developed according to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our hope
that this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations 


  Executive Summary ........................................................................................... 1


  Background ......................................................................................................................................2 


  Results of Audit ...............................................................................................................................6 


       Improving Grant Monitoring and Oversight..............................................................................6 

          Recommendations..............................................................................................................11 

          Management Comments and OIG Analysis ......................................................................13 


       Improving the Ability to Measure UASI Program Success ....................................... 14 

          Recommendations..............................................................................................................19 

          Management Comments and OIG Analysis .................................................... 20 


       Conclusions .............................................................................................. 21 


  Appendices

       Appendix A:                 Objectives, Scope, and Methodology ........................................................22              

       Appendix B:                 Applicable Public Laws, Regulations, and Circulars ................................25 

       Appendix C:                 Distribution of New York State 20% Share ..............................................26 

       Appendix D:                 Program Requirements - Fiscal Years 2003 to 2005 .................................28 

       Appendix E:                 Management’s Response to the Draft Report ............................................30 

       Appendix F:                 Major Contributors to This Report ............................................................33 

       Appendix G:                 Report Distribution ....................................................................................34 


  Abbreviations

       DHS                         Department of Homeland Security 

       FEMA                        Federal Emergency Management Agency 

       FY                          Fiscal Year    

       OIG                         Office of Inspector General 

       OMB                         Office of Management and Budget 

       UASI                        Urban Area Security Initiative 

       Working Group               New York City Urban Area Working Group 





              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The Urban Area Security Initiative grant program provides states and local
                     governments with the funding needed in high-risk urban areas to build an
                     enhanced and sustainable capacity to prevent, respond to, and recover from
                     threats or acts of terrorism. This audit assessed whether (1) the Office of
                     Grants and Training and the State of New York established effective oversight
                     and program monitoring over the New York City urban area, and (2) Urban
                     Area Security Initiative funding enhanced the area’s homeland security
                     capacity as intended. The New York City urban area received $337 million
                     from fiscal years 2003 to 2005, and our audit covered $244 million provided
                     to the urban area’s three largest subgrantees.

                     The level of federal and non-federal funding expended to enhance
                     preparedness in the New York City urban area is noteworthy and indicative of
                     a concerted effort at all levels to prevent and recover from terrorist attacks.
                     However, improvements are needed in overseeing and monitoring grant
                     expenditures, and rating the preparedness of the New York City urban area
                     when viewed as a single regional entity.

                     We are recommending that the Assistant Administrator, Grant Programs
                     Directorate, review and act on the questionable expenditures, develop
                     procedures that assure subgrantees are using funds to purchase authorized
                     equipment, and collect interest earned on federal grant funds.

                     We also are recommending that the Grant Programs Directorate encourage the
                     State Administrative Agency to develop an automated system for all urban
                     area subgrantees to report grant expenditures, use the automated information
                     to verify expenditures, and provide the Directorate limited access to, or
                     reports from, the system for independent monitoring and oversight of grant
                     activities.

                     Lastly, we are recommending that the Directorate (1) require the Urban Area
                     Working Group to establish priorities and rate the preparedness of the urban
                     area in total after clarifying the Woodbury Scale Rating System currently in
                     use by subgrantees and (2) work with Working Group members to develop
                     criteria and guidance for measuring success as it relates to goals and
                     objectives.




         Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                  Page 1

Background
                          In February 2003, the President signed Public Law 108-7 that allocated funds
                          to a vital grant program available to states and local governments in support of
                          the national effort to combat terrorism (Appendix B provides the complete
                          title of this and other applicable public laws pertinent to the UASI grant
                          program). The UASI grant program specifically provided yearly financial
                          assistance to high risk urban areas to address unique planning, equipment,
                          training, and exercise needs; and assist these urban areas in building an
                          enhanced and sustainable capacity to prevent, respond to, and recover from
                          threats or acts of terrorism. The Office of Grants and Training, formerly the
                          Office for Domestic Preparedness,1 reports to the Under Secretary for
                          Preparedness within DHS and is the lead federal agency for awarding grant
                          funds intended to assist state and local governments in preparing for or
                          responding to act of terrorism.

                          Since its inception in FY 2003, the UASI grant program has experienced
                          significant growth. The FY 2003 UASI Part I program resulted in grant
                          awards of $96 million made directly to seven urban areas located in five states
                          and the District of Columbia. Beginning with FY 2003 UASI Part II, grant
                          funds were awarded to the states and then sub-granted to numerous urban
                          areas. In FY 2005, $830 million in grant funds were awarded to 27 states and
                          the District of Columbia for sub-grant awards to 50 urban areas. Through
                          FY 2005, grant funding available totaled $2.4 billion to address the homeland
                          security needs identified by state and local governments, nonprofit
                          organizations, and commercial companies. New York City has received
                          $337 million of the $2.4 billion, and our audit covered $244 million provided
                          to the city’s three largest sub-grantees.

                          Federal, state, and local roles and responsibilities as well as program funding
                          and descriptions from FY 2003 to FY 2005 are discussed below:

                          Office of Grants and Training (Grants & Training). Grants and Training
                          oversees the UASI grant program, and provides a “one-stop-shop” for
                          numerous other DHS preparedness grant programs and initiatives applicable
                          to state and local “first responders”; i.e., police, fire, and emergency medical
                          personnel, etc. Although Grants and Training has program management
                          responsibilities for domestic preparedness grants, through FY 2005 it relied
                          upon the U.S. Department of Justice, Office of the Comptroller, for grant fund
                          distribution and assistance, financial management support, and financial
                          monitoring of grantees. Each grant year, Grants and Training provides UASI

1
 In 2005, the Office for Domestic Preparedness became the Office of Grants and Training. The Office of Grants and
Training became part of the Federal Emergency Management Agency (FEMA) on April 1, 2007 and was renamed the
Grant Programs Directorate. For the purposes of this report, we will use Office of Grants and Training as the grant
awarding entity.

              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                 Page 2
                          program guidance to assist state and local governments in applying for and
                          administering the grant awards. Grants and Training works closely with the
                          New York State Administrative Agency in its administration of the grants.

                          State Administrative Agency. The New York State Office of Homeland
                          Security is the State Administrative Agency2 for the New York City urban
                          area with overall responsibility for conducting comprehensive urban area
                          assessments and developing the statewide homeland security strategy. In
                          addition, the State Administrative Agency is the single point of contact with
                          Grants and Training regarding application for and administration of Grants
                          and Training grant funds.

                          The State Administrative Agency develops a methodology for allocating grant
                          funds to sub-grantees and works through the New York City Mayor’s office to
                          identify a point-of-contact to serve on the New York City Urban Area
                          Working Group (Working Group). In addition, the State Administrative
                          Agency monitors, oversees, and attends the Working Group meetings to
                          obtain the current status of the grants but does not affect or influence the
                          outcome of the rating process for the urban area’s priorities.

                          New York City Urban Area Working Group. FY 2003 UASI grant
                          guidance required the State of New York to develop and implement working
                          groups for each high risk designated urban area. The working groups were
                          responsible for coordinating, developing, and implementing all program
                          elements, including the urban area assessment, homeland security strategy
                          development, and any direct services Grants and Training requested or
                          delivered. Grants and Training and the Working Group use the urban area
                          assessment and strategy to allocate funding and guide delivery of direct
                          services in the form of training, exercises, and technical assistance.

                          The Working Group includes numerous participants from New York City,
                          Westchester, Nassau and Suffolk Counties, the City of Yonkers,3 the
                          Metropolitan Transportation Authority, the Port Authority of New York and
                          New Jersey, and the New York State Office of Homeland Security. Based on
                          the urban area assessments and the state homeland security strategy, the
                          Grants and Training preparedness officer and the sub-grant recipients are
                          required to mutually agree on a rating score for UASI fundable projects,
                          however, the preparedness officer makes the final project determination. Prior
                          to FY 2006, sub-grantees subjectively rated each project, however beginning




2
  From this point forward we will use the State Administrative Agency in place of New York State Office of Homeland 

Security.

3
  Prior to 2006, the City of Yonkers was represented by Westchester County.


              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                       Page 3

                           in FY 2006; the Woodbury Scale4 was used to rate the importance of each
                           project (discussed in detail later in this report).

                           UASI Program Funding. Under FY 2003 Part I guidance, Grants and
                           Training provided UASI grant funding directly to the urban areas selected by
                           the Secretary, Department of Homeland Security. Beginning with FY 2003
                           Part II grants, UASI awards were made to the state, and the grant guidance
                           required that the urban areas in the state receive at least 80% of the allowable
                           funding with the state retaining not more than 20%. As indicated below, for
                           the New York City urban area, the city itself received most of the urban area
                           funding by agreement between New York’s Governor and New York City’s
                           Mayor. Table 1 shows the amount received by the State for distribution to all
                           urban areas, the State share, and the amount received by New York City.

                                          Table 1 - Summary of UASI Program Dollar Amounts
                                            For the State of New York and New York City *
                                                          (Dollars in millions)

                                   UASI                TOTAL                 NEW YORK                  NEW YORK
                                  GRANT              NEW YORK               STATE SHARE                CITY SHARE
                                AWARDS*            STATEAWARD**                (20%)                      (80%)
                                  FY 2003
                                Part 1 - $96                 $0                     N/A                      $25
                                  FY 2003
                                Part 2 - $699              $135                     $27                     $100
                                  FY 2004
                                    $725                    $79                     $16                      $43
                                  FY 2005
                                    $830                   $221                     $44                   $169 ***

                           *	    Data provided by State Administrative Agency and New York City Criminal Justice
                                 Coordinator.
                           **    Includes money for New York City and Buffalo urban areas for FYs 2003 through
                                 2005, Albany urban area for FY 2004, and funding of the state’s share.
                           *** 	 New York City used $3.1 million to supplement the Law Enforcement Terrorism
                                 Prevention Program because Congress reduced funding in FY 2005 by 25 percent.

                           •	 Fiscal Year 2003 - UASI Program Part I. FY 2003 Part I grant funding
                              totaled $96 million and was awarded directly to seven urban areas: New
                              York City, the National Capital Region, Los Angeles, Seattle, Chicago,
                              San Francisco, and Houston. Funding for this program was determined by
                              a formula using a combination of current threat estimates, critical assets,
                              and population density within the specified urban areas.


4
 Intended to evaluate grantee progress in meeting the goals and objectives of the state’s homeland security strategy as
well as meeting national priorities.

              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                 Page 4
                               New York City received $25 million, which it used to fund police and fire
                               department homeland security activities. The activities were funded based
                               on a plan, which identified and justified the use of the funds. According to
                               New York State personnel, all funds were expended by December 31,
                               2006, and the grant is now in the final closeout phase.

                           •   Fiscal Year 2003 - UASI Program Part II. FY 2003 Part II provided
                               $699 million in grant funding to 19 states and the District of Columbia for
                               subsequent distribution to 30 urban areas including the 7 urban areas
                               funded by Part I. New York City received $100 million. Grants and
                               Training allowed New York State to retain 20% of the total grant to cover
                               administrative expenses; however, the state distributed the entire amount
                               to the New York City and Buffalo Urban Areas. See Appendix C for a
                               breakdown of state share distribution. New York City distributed its funds
                               to the following eight agencies:

                               •    Department of Environmental Protection,
                               •    Department of Information Technology and Telecommunications,
                               •    Office of Emergency Management,
                               •    Fire Department,
                               •    Department of Transportation,
                               •    Police Department,
                               •    Department of Health and Mental Hygiene, and
                               •    The Health Hospitals Corporation.

                               Grants and Training based grant awards on a formula that considered
                               population density, critical infrastructure, and current threat estimates as
                               articulated in urban areas’ strategic plans. Grants and Training required
                               the recipients to provide budgets detailing their needs before issuing the
                               funds. This process resulted in long delays and extensions up until
                               December 31, 2006.

                           •   Fiscal Year 2004 - UASI Program. The FY 2004 UASI grant program
                               provided $725 million in discretionary grants to 27 states and the District
                               of Columbia for 50 urban areas -- some previously identified areas and
                               some new ones. Of the $725 million, New York City received $43 million
                               and used all of it to cover orange alert overtime for the police department.5
                               Grants and Training made an exception to the overtime cap for FY 2004
                               UASI funding; therefore, 100% of the funding was applied to personnel
                               and fringe benefits for the police department.



5
  Funding from UASI, other federal grants, and state, and local governments were used to cover orange alert activities
including the Republican National Convention in New York City.

              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                       Page 5

                                In an effort to expedite the process to local governments, Grants and
                                Training advanced the funds and relied on the entities to submit
                                expenditure reports. [Subsequent to the issuance of our draft report, the
                                Grant Programs Directorate, the successor to Grant and Training asked us
                                to clarify the above by indicating that the Directorate requires grantees to
                                maintain a minimum of cash on hand.] All funds were expended by the
                                end of the first quarter of 2005. As with FY 2003, Grants and Training
                                based grant awards on a formula that considered population density,
                                critical infrastructure, and current threat estimates as articulated in urban
                                areas’ strategic plans.

                            •	 Fiscal Year 2005 - UASI Program. FY 2005 UASI grants totaled
                               $830 million for 50 urban areas located in 27 states and the District of
                               Columbia. New York City received $169 million. In FY 2005, Congress
                               waived the Cash Management Improvement Act of 19906 [31 USC 3335
                               and 31 USC 6503] allowing the funds to flow better. The State
                               Administrative Agency administered the funds on a reimbursement basis
                               allowing the recipients to provide a budget detailing their needs before
                               issuing the funds. FY 2005 funds remained available through March 31,
                               2007, the end date of the grant performance period.

                                FY 2005 funding allocations changed from previous allocations in that
                                they were based on credible threats, the presence of critical infrastructure,
                                vulnerability, population, population density, law enforcement
                                investigative and enforcement activity, and the existence of formal mutual
                                aid agreements.

Results of Audit
                            Grants and Training, the State Administrative Agency, the New York City
                            urban area, and related department, agency, and authority officials have
                            demonstrated a commitment to preventing, deterring, responding to, and
                            recovering from terrorist attacks. This commitment is evidenced by their
                            efforts and the level of federal and non-federal funding expended in the New
                            York City urban area to enhance preparedness since FY 2003. However,
                            improvements are needed in overseeing and monitoring the grants and rating
                            the preparedness of the New York City urban area when viewed as a single
                            regional entity.

           Improving Grant Monitoring and Oversight
                            Grants and Training and the State Administrative Agency can strengthen
                            controls over grant spending by enhancing the monitoring and oversight

6
    In 2006, the waiver became permanent.

                Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                   Page 6
            processes related to grant execution. In their efforts to have grant funds
            released and expended more timely, Grants and Training and the State
            Administrative Agency have not performed the same level of in-depth
            monitoring as was performed during FY 2003 of the UASI grant program.
            Specifically, neither Grants and Training nor the State Administrative Agency
            enhanced their post award monitoring of expenditures. Enhancing the
            monitoring processes within Grants and Training and the State Administrative
            Agency could reduce potential unauthorized expenditures.

            Expenditures against the FY 2003 UASI Program Part II grant, including
            $3.17 million for an automated student health record system, $160,949 for
            landlord administrative fees, and other smaller items such as newspaper
            subscriptions, did not have supporting documentation in Grants and Training
            and State Administrative Agency files. Therefore, we considered these
            expenditures questionable and requested additional information.

            Grants and Training agreed that the expenditures identified above, when
            considered at face value, are questionable and would require more
            information. When asked for additional support, Grants and Training had
            little information on file that would justify these expenditures. Our research
            on these questionable areas is discussed below:

            •	 While the New York City urban area requested and justified the automated
               student health record system to monitor suspected health problems within
               the school system and to detect a bio-terrorism as early as possible, school
               personnel using the system stated the automated system replaced a manual
               system and had no bio-terrorism application. Grants and Training
               personnel indicated a higher-level DHS official provided approval on the
               urban area’s request to obtain the system.

                During a January 2007 meeting, New York City officials pointed out to us
                that the automated health system was included in their initial strategic plan
                that was approved by Grants and Training and again in a recent letter from
                Grants and Training. City officials viewed the approval of the strategic
                plan as authorization to make expenditures. Therefore, any subsequent
                review of expenditures would result in unnecessary micro-management by
                federal and state officials. Further, these officials stated that grant
                program funds were approved based on the urban area’s strategic goals
                and objectives and that funding decisions as to how to meet those goals
                and objectives were left up to the urban area.

                Our review of the urban area’s initial strategic plan confirmed that the
                automated student health record system was included in the plan approved
                by Grants and Training and the State Administrative Agency. However,
                despite the city’s comments to the contrary, federal and state officials are

Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 7

                                 responsible for overseeing financial and programmatic execution of grant
                                 terms and conditions. This includes periodic verification of expenditures
                                 to assure that the urban area is achieving or has achieved the goals and
                                 objectives articulated in its strategic plan.

                                 Subsequent to our fieldwork, Grants and Training provided additional
                                 information regarding the automated student health record system
                                 discussed above. Grants and Training indicated the system

                                     … was an approved expense as part of a syndromic[7] surveillance
                                     system for the Public Health Department. The Capabilities Division is
                                     certain that the automated student health record contains a bio-
                                     terrorism application and possibly the appropriate school personnel
                                     were not interviewed.

                             •	 At the end of our audit fieldwork, Grants and Training had not determined
                                the validity of the landlord administrative fees paid for with grant funds.

                             •	 The State Administrative Agency provided Grants and Training with
                                support from New York City stating that newspapers and news magazines
                                offered open sources of intelligence to assist the urban area in identifying
                                and analyzing terrorist threats in a timely and useful fashion.

                             As discussed below, Grants and Training and the State Administrative Agency
                             need to make improvements in the monitoring of individual expenditures,
                             interest collections, and on-hand assets. Better monitoring and oversight
                             processes would provide Grants and Training and the State Administrative
                             Agency with the ability to advise urban area grant recipients not to make
                             unauthorized expenditures or to require additional support justifying
                             expenditures.

                             Monitoring Individual Expenditures

                             The New York City Criminal Justice Coordinator served as the focal point to
                             collect and monitor the expenditures for all New York City agencies. This
                             paper-intensive process required the Coordinator to obtain copies of purchase
                             orders generated by the grant recipients and to prepare expenditure reports
                             summarizing all expenditures related to the UASI grant. These reports were
                             then forwarded to the State Administrative Agency for further reporting to
                             Grants and Training.

                             To provide in-depth monitoring of grant expenditures and to verify the
                             eligibility of those expenditures, Grants and Training and the State
                             Administrative Agency would require copies of all purchase orders and

7
    A syndrome is a complex of symptoms indicating the existence of an undesirable condition or quality.

                Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                   Page 8
            monitoring reports regularly submitted by the grant recipients. The State
            Administrative Agency recognized the difficulty in reviewing all purchase
            orders and has initiated steps to improve its monitoring capabilities. One
            option being considered is a software module that could be added to the
            statewide online database that could be used by all grant recipients to report
            grant expenditures. Currently, the statewide system is used for grant
            application and tracking. New York City did not have a central database to
            monitor the expenditures of its eight sub-grantees; instead, they tracked
            expenditures through a paper-intensive method of monitoring and overseeing
            grant execution. However, the State Administrative Agency is currently
            working with the city, the largest urban area grant recipient, on ways to
            incorporate the city into the system and to develop ways to improve on line
            financial reporting and accountability.

            New York City officials stated they rely on an extensive internal control
            system, the citywide financial management system, city budget process, and
            internal and external audits to monitor city and agency spending. City
            officials also said they rely on feedback they receive from Grants and Training
            yearly visits as an indicator of New York City urban area performance in
            executing grant requirements. While the comments offered by New York City
            officials indicated a degree of expenditure monitoring and oversight, the
            volume and dollar amount of New York City transactions in a paper driven
            system makes monitoring expenditures by Grants and Training and the State
            Administrative Agency difficult and time consuming. Automating the process
            would allow for enhanced monitoring and would allow for eliminating
            questionable and potential duplicate expenditures.

            Monitoring Interest Collections

            The New York City Criminal Justice Coordinator reported $1.15 million in
            accrued interest earned on grant funds advanced to New York City but the
            interest has not been remitted to the federal government. In this instance
            retaining the interest earned on federal grant funds violates the Cash
            Management Improvement Act of 1990 (31 USC 6503(c)(1)).

            Table 2 below shows the interest earned by New York City as reported to the
            State Administrative Agency and, in turn, to Grants and Training in its
            quarterly fiscal cost reports beginning with the second quarter of 2005.
                  Table 2 – Interest earned on grant funds advanced to New York City

                           Quarter/FY                    Period                Amount
                           Second/2005          Oct. 2003 - Jun. 2005          $936,032
                            Third/2005          Jul. 2005 - Sep. 2005            114,446
                           Fourth/2005          Oct. 2005 - Dec. 2005            101,308
                                     Total                                    $1,151,786

Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 9

            The Department of Justice’s Office of Justice Programs originally identified
            the accrued interest during a November 2004 on-site monitoring visit
            requested by the DHS Office for Domestic Preparedness. The Office of
            Justice Programs recommended that the New York State Division of Criminal
            Justice Services remit the accrued interest to the U.S. Department of Health
            and Human Services.

            Because the grant funds were administered by the State Administrative
            Agency and had not yet been remitted, in May 2005, Grants and Training
            requested that the State Administrative Agency remit the interest to the U.S.
            Treasury rather than the U.S. Department of Health and Human Services.

            Grants and Training, State Administrative Agency, and New York City
            officials were unsure as to when the interest earned on federal funds needed to
            be remitted to the U.S. Treasury but indicated that the interest may not be due
            until the grant is closed out. In January 2007, Grants and Training, State
            Administrative Agency, and New York City officials stated they would
            research the issue of when to remit the interest and determine how much
            interest has currently been earned. Subsequent to our fieldwork, Grants and
            Training directed the grantee to return the interest already earned, to return
            interest thereafter on a quarterly basis, and to report interest on its Financial
            Status Report (Standard Form -269)

            Monitoring On-Hand Assets

            New York City could not easily monitor on-hand assets because it had not
            developed a citywide database to do so. New York City and two of the three
            sub-grant agencies we visited could only identify UASI funded non-
            expendable equipment by reviewing individual purchase orders. Further, our
            review of equipment inventory procedures at the three sub-grant agencies
            showed that each used a different method of controlling and reporting assets.
            Developing a citywide database would enable the city to monitor on-hand
            assets; increase the visibility of quantities, locations, and availability of assets
            during response and recovery efforts; and help avoid duplicate assets. Details
            of our review are discussed below.

            •	 One agency’s Office of Homeland Security Grants maintained a
               centralized database. This office made inputs into its database based on
               notification from the various agency divisions that expenditures against
               the grant had been made. When the divisions failed to provide copies of
               purchase orders or otherwise notify the grants office of the expenditure
               and acquisition of the asset, a record was not created in the database.
               Further, this system was not accessible outside of the grants office.
               However, separate databases and tracking mechanisms for grant funded


Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                   Page 10
                equipment acquisitions were developed within the other divisions. During
                our inventory, we noted two such databases already in existence.

            •	 The other two agencies could not provide complete supporting
               documentation identifying equipment purchased with UASI funds. For
               example, one agency provided us a list of equipment that they
               subsequently determined was a wish list of equipment to be purchased
               with UASI funds. We later received a new list from the agency’s
               accounting department, but the list contained a variety of equipment items
               purchased with UASI and other DHS grant funds. Divisions and precincts
               in those agencies kept spreadsheets, budgets, wish lists, and copies of
               purchase orders to support grant funded equipment acquisitions but those
               records were not always indicative of on-hand assets. As such, we could
               not always reconcile assets physically located on site against the inventory
               records. Furthermore, some equipment was purchased with multiple
               funding sources, and it was not clear where the equipment was reported.
               Some divisions were developing their own databases to track and monitor
               on-hand assets.

                During our January 2007 meeting, city officials indicated they were
                working with other Working Group members on a citywide assets and
                logistics management system that could be used for the entire urban area.

   Recommendations

            We recommend that the Assistant Administrator, Grant Programs
            Directorate:

                Recommendation #1: Review the landlord administrative fee
                expenditure to determine the applicability for funding by the UASI
                program and take appropriate actions.

                Recommendation #2: Implement monitoring procedures that assure that
                grantees and sub-grantees use UASI funds to purchase authorized
                equipment.

                Recommendation #3: In coordination with the State Administrative
                Agency, collect the $1.15 million in interest earned on federal grant funds
                through the fourth quarter of FY 2005 and any interest earned thereafter.

                Recommendation #4: Encourage the State Administrative Agency to:

                    •	 Develop an online database to report grant expenditures for use by
                       all urban area sub-grantees,


Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 11

                    •	 Use the database to perform periodic independent verifications of
                       expenditures and on-hand assets, and

                    •	 Provide the Office of Grants and Training access to, or reports
                       from, the statewide database to allow for independent monitoring
                       and oversight of expenditures, inventories of on-hand assets, and
                       interest collections.




Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                   Page 12
Management Comments and OIG Analysis
            Management Comments to the Recommendations

            For Recommendation #1, the Financial Accountability and Oversight Division
            (FAO) will review the landlord administrative fee with the grantee to
            determine the eligibility of the fee for UASI program funding.

            In response to Recommendation #2, the Acting Assistant Administrator did
            not agree that additional monitoring procedures were needed to assure that
            grantees and sub-grantees use UASI funds to purchase authorized equipment.
            The Grant Programs Directorate has a robust grantee monitoring protocol in
            place and the Grant Development and Administration Division has been
            monitoring all 50 States and the Territories on an annual basis, and the Urban
            Area participants every 2 years. Additionally, the Financial Accountability
            and Oversight Division conducts financial monitoring of FEMA grantees.
            The Preparedness Officer assigned to New York State has frequent contact
            with both the State Administrative Agency and New York City regarding
            authorized equipment. For FY 2003 grants, grantees were required to submit
            detailed budget worksheets identifying every item to be purchased with grant
            funds.

            The $1.15 million in interest earned on federal grant funds has been returned
            to the federal government as we suggested in Recommendation #3.

            In response to Recommendation #4, the Grant Programs Directorate did not
            agree that it should encourage the state to implement a specific information
            system. Rather, it encourages states to implement the best available means to
            gather and track data. Additionally, Directorate officials said that State
            Administrative Agencies are held to their state’s rules and regulations
            regarding the responsible administration of federal grant funds for the direct
            oversight of sub-recipients’ management of DHS passed through funds. In
            addition, the State Administrative Agencies are responsible for implementing
            processes that will ensure compliance with DHS guidance requirements and
            other Federal rules and regulations.

            OIG Analysis

            The Grant Programs Directorate’s response to Recommendation #1 and
            Recommendation # 3 meet the intent of those recommendations.

            Regarding Recommendation #2 and Recommendation #4, the report
            recognizes that the level of federal and non-federal funds expended in the
            New York City urban area shows a concerted effort to prevent and recover


Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 13

               from terrorist attacks. Throughout our fieldwork and in this report, we
               recognize the extensive monitoring efforts of Grant Program Directorate staff.

               The intent of Recommendation #2 was to highlight some areas at the State
               Administrative Agency and urban area levels needing improvement so that the
               Grant Programs Directorate could implement additional processes to enhance
               its programmatic and financial monitoring. The Grant Programs Directorate
               has enhanced its grant guidance to states and urban areas since the inception
               of the UASI grant program in FY 2003, and has demonstrated its robust
               programmatic and financial monitoring protocols in recent years. Therefore,
               we accept the Directorate’s comment that no additional monitoring procedures
               are needed at this time.

               The Directorate’s comment to Recommendation #4 regarding its
               encouragement to states on implementing the best available means to gather
               and track data meets the intent of the recommendation. As with
               Recommendation 2, our intent was have the Grant Program Directorate urge
               the state to streamline its processes to help the state better monitor grant
               expenditures and determine the eligibility of those expenditures and to make
               programmatic and financial monitoring at the federal level easier.

Improving the Ability to Measure UASI Program Success
               The New York City urban area, when viewed as a single entity, cannot
               measure the intended effect of using UASI funds to build an enhanced and
               sustainable capacity to prevent, respond to, and recover from threats or acts of
               terrorism. However, each member of the area subjectively measured their
               individual successes and capabilities based on funding expended from all
               sources for equipment, training, and exercises. Urban area-wide capacities
               were not measured because the Working Group did not prioritize funding of
               projects as a group, rate the preparedness of the urban area collectively, or
               fully understand the Woodbury Rating System. In addition, the measurement
               of enhanced and sustainable homeland security capacities cannot be
               determined solely from the expenditure of UASI funds but rather should be
               determined from the total federal and non-federal investment in these
               capacities. Therefore, the recently reported ratings for measuring the intended
               effect of using UASI funds are misleading.

               Grant guidance from Grants and Training required designated urban areas to
               establish working groups that would be responsible for coordinating the
               development and implementation of all program elements, including the urban
               area assessment, strategy development, and any direct services delivered by
               Grants and Training. The guidance required the state to semi-annually report
               its progress in executing the grant. Categorical/Discretionary Assistance
               Progress Reports included a general, subjective statement regarding progress
               in the areas of acquiring equipment, training, and exercises.

   Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                      Page 14
            According to Appendix C of the FY 2006 Office of Grants and Training
            Strategic Monitoring Protocols for Eastern, Central, and Western Division:

                    Preparedness Officers will need to focus their strategic
                    monitoring on two fronts: (1) the progress made in
                    achieving Goals and Objectives stated in the most recently
                    approved Homeland Security Strategy; and (2) progress
                    made in accomplishing the National Priorities issued under
                    the guidance of Homeland Security Presidential
                    Directive - 8.

            In its efforts to measure enhanced homeland security capabilities and to show
            progress in meeting national priorities, Grants and Training provided grantees
            the Woodbury Scale as a means to move from subjective assessments of
            capabilities to a more objective and quantifiable methodology. The
            Woodbury Scale, when properly applied, was intended to evaluate grantee
            progress in meeting the goals and objectives of the state’s homeland security
            strategy as well as meeting national priorities. The rating/scoring of priority
            areas or goals is described in Table 3 below:

                                           Table 3 – Woodbury Scale

                       Rating/Score                          Description
                            0              Priority area/goal not being addressed
                            1              Priority area/goal identified
                            2              Initial efforts have commenced
                            3              Efforts are well on the way
                            4              Priority area/goal nearing completion
                            5              Priority area/goal completely addressed

            While the Grants and Training preparedness officer and the grant recipient
            mutually agree on a rating score based on grant execution, the preparedness
            officer makes the final determination concerning priority areas and goals.
            Measuring program success has been problematic for the four reasons
            discussed below.

            1.	 The Working Group did not prioritize the funding of projects as an
                urban area.

            The Working Group serves as the executive steering committee to provide
            overall governance of the UASI program. The Working Group’s mission is to
            maximize the efforts of jurisdictions in the metropolitan area to prevent,
            prepare for, respond to, and recover from acts of terrorism and events
            involving weapons of mass destruction. The Working Group should link and
            coordinate activities such as equipment acquisitions, joint training and
Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 15

            exercises, public education and outreach, and the development of response
            protocols under various grant programs; e.g., UASI grant program and other
            homeland security grant programs. Further, the Working Group is tasked with
            conducting urban area assessments and developing urban area homeland
            security strategies. The Working Group consists of multi-jurisdictional and
            multi-disciplinary members from all contiguous jurisdictions and mutual aide
            partners.

            Despite its formidable mission, the Working Group worked well at developing
            their strategies and plans, developing exercises and response protocols, and
            other key areas for strengthening the response to terrorist actions. However,
            until recently, setting and funding urban area priorities as a single entity was
            not an issue dealt with by the Working Group. We met with city officials in
            January 2007 during which we were told that the Working Group decided that
            urban area-wide priorities were not actively considered because, as discussed
            below, all urban area funding in the early years of the UASI program went
            directly to New York City. Both Grants and Training and State
            Administrative Agency officials stated that the meetings we monitored during
            the audit were the Working Group’s first efforts at looking at priorities and
            funding as a single regional entity. Prior to this, each Working Group
            member developed individual funding priorities for the use of UASI funds.

            Grants and Training UASI grant guidance (FY 2003 Part II through FY 2005)
            required urban areas to receive at least 80% of the authorized funding with the
            state retaining not more than 20%. Although all eight members of the
            Working Group qualified for urban area grant funding, the full 80% for urban
            area members went to only one member -- New York City -- as decided by the
            State Governor in conjunction with the City Mayor. At the Governor’s
            discretion, a portion of the remaining 20%, representing the state’s share
            intended to fund state purposes, was distributed among the other Working
            Group members. Appendix C shows how the state distributed its 20% share
            as direct “unmarked” funding allocations to various UASI sub-grantees.
            Many of these sub-grantees received other state share funds for specific
            agencies or projects, i.e. “marked” funding.

            Since the Working Group’s mission is to maximize the efforts of jurisdictions
            in the metropolitan area, it should have assessed and evaluated the needs of all
            Working Group members and developed a prioritized list of projects covering
            the entire urban area. By doing so, the Working Group could have funded the
            highest priority projects that benefited the urban area as a whole. However,
            the manner in which UASI grant program funds were distributed undermined
            the Working Group’s control over urban area priorities and funding decisions.
            It also increased the potential for funding lower priority projects before
            funding a project that may have been a higher priority project when viewing
            the urban area as a whole. In addition, Working Group members, other than


Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                   Page 16
            New York City, were limited in funding long-term, high cost projects thereby
            extending project completion unless other sources of funds were found.




Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 17

            2.	 Woodbury Scale ratings were not accurate.

            Grants and Training and the Working Group first used the Woodbury Scale in
            June 2006 in an attempt to collectively rate/measure projects against state and
            national homeland security goals and objectives. Each Working Group
            member provided a Woodbury Scale ranking of between zero and five for
            how they saw the urban area’s current status in regards to state and national
            goals and objectives. Working Group members agreed that the rating that
            received the most votes would be the rating used for the whole urban area.

            We observed the June 2006 monitoring meeting and concluded that the
            Working Group representatives had different approaches for determining their
            numeric rating and, as a result, ratings assigned to state and national goals and
            objectives were not accurate. For example, some members gave ratings based
            on their own jurisdiction while others gave ratings based on what they thought
            the overall urban area should receive. Some believed they deserved a higher
            rating of accomplishment within the urban area when viewed as a whole but
            they were unable to assess the ratings for other jurisdictions. Furthermore,
            members were concerned about rating themselves at a one or two for each
            strategy and national priority, because they were concerned that the public
            would misinterpret their ratings to mean that they were not as prepared as they
            should be since 9-11. In addition, it became apparent during the meeting that
            some members’ ratings were based on the ratings given by those who spoke
            up first or were based on New York City’s assessment. Collectively, the “ad
            hoc” methodology in determining Woodbury Score ratings reduced the
            Working Group’s ability to provide a well-founded rating for the urban area as
            a whole.

            3.	 Working Group members were not familiar with the Woodbury
                Scale.

            The Working Group members and represented jurisdictions were not familiar
            with the Woodbury Scale as a means to measure enhanced homeland security
            capabilities and to show progress in meeting national priorities. During the
            June 2006 meeting, the representatives indicated that they required specific
            guidance, not previously provided, and more time to prepare for the rating.
            Repeatedly, the members asked questions as to what each individual rating
            meant in an attempt to determine a consistent basis for ratings given by each
            member.

            The Working Group could not support an overall urban area rating on the state
            and national goals and objectives addressed during the meeting because the
            rating process lacked any pre-established rating or measurement criteria. For
            example, each jurisdiction identified its own critical infrastructures and
            individually rated the measures taken to protect that infrastructure. However,
            the Working Group did not identify or prioritize critical infrastructure on an

Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                   Page 18
            urban area-wide basis. While one large jurisdiction like New York City could
            have its “efforts well under way” (Woodbury Scale rating of 3), other
            surrounding jurisdictions could have similar critical infrastructure protections
            that had not been addressed or had just been identified (Woodbury Scale
            ratings of 0 or 1). Without pre-established rating and measurement criteria,
            the Working Group could not assign an accurate rating to state and national
            goals and objectives.

            4. Woodbury Scale ratings were not based solely on UASI funding.

            The ratings provided during the monitoring meeting were not determined on
            the basis of UASI grant funds alone. Therefore, the Working Group could not
            effectively coordinate the development and implementation of all UASI grant
            program elements or accurately report its progress in executing the grant.
            Some Working Group members rated progress on the basis of all federal and
            non-federal funds spent on homeland security improvements. This included
            grants from the Homeland Security Grant Program, Law Enforcement
            Terrorism Prevention Program, Urban Area Security Initiative, COPS’
            Homeland Security Overtime Program, Citizen Corps, and Metropolitan
            Medical Response System, as well state and local funds. These
            representatives indicated that measuring progress solely on UASI funding
            could result in Woodbury Scores of one (priority area/goal identified) or
            two (initial efforts have commenced). On the other hand, considering all
            sources of funding would result in higher scores. While the Working Group
            members provided compelling reasons why all homeland security funding
            should be considered, the layering effect of all funding source provides a
            misleading rating for the benefits of using UASI funds. In that regard, Grants
            and Training should determine the most effective means to determine UASI
            grant programs effectiveness.

Recommendations

            We recommend that the Assistant Administrator, Grant Programs
            Directorate:

                Recommendation #5: Require that the New York City Urban Area
                Working Group (1) establish critical infrastructure funding priorities
                relative to the urban area as a whole, and (2) rate the preparedness of the
                urban area when viewed as a single regional entity.

                Recommendation #6: Provide the Working Group members clear
                guidance on the use of the Woodbury Scale Rating System, and work with
                Working Group members to develop criteria for measuring success as it
                relates to UASI goals and objectives.


Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                         Page 19

Management Comments and OIG Analysis
            Management Comments to the Recommendations

            The Grant Programs Directorate did not concur with Recommendation #5 and
            stated that the New York City Urban Area is required to develop and
            implement an Urban Area Homeland Security Strategy and fund projects
            accordingly. The New York City Urban Area does have an operational Urban
            Area Working Group, and progress is being made in the implementation of
            memoranda of understanding, joint projects, etc. Additionally, the Grant
            Programs Directorate emphasized that there is a long-standing agreement
            within New York State such that New York City has received the UASI funds
            and the State funded the rest of the Urban Area from the State funds.

            Likewise, the Grant Programs Directorate did not concur with
            Recommendation #6 because Directorate officials thought we placed too
            much emphasis placed on the Woodbury Scale as a measure of meeting UASI
            Program goals and objectives. Those officials pointed out that (1) the
            Woodbury Scale is only one measure used to identify the progress states and
            urban areas make in implementing their homeland security strategies
            (2) FY 2006 was the first year the Scale was used as a measure, and (3) it is
            certainly likely that some members of the Urban Area Working Group were
            unfamiliar with the Scale, unclear as to its use, or uncomfortable with the
            self-reporting mechanism included in the Scale and part of the monitoring
            process.

            OIG Analysis

            We agree with the Grant Programs Directorate regarding the existence of an
            urban area homeland security strategy, the establishment of the urban area
            working group, and the Governor’s agreement with the New York City Mayor
            that the 80% share of UASI program funds would be provided to New York
            City.

            The Directorate’s response to Recommendation #5 falls short of addressing
            the points we made in that recommendation; namely that the Working Group
            establish critical infrastructure funding priorities relative to the urban area as a
            whole, and rate the preparedness of the urban area when viewed as a single
            regional entity. The response does recognize that “…progress is being made
            in the implementation of memoranda of understanding, joint projects, etc.” but
            provides little information as to what the outcomes of the memoranda of
            understand and joint projects will be, and when these actions will be
            completed.

            While our report does place a substantial amount of emphasis on the use of the
            Woodbury Scale Rating System, the Directorate’s response to

Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                   Page 20
               Recommendation #6 did not address the second part of that recommendation
               wherein we recommended that Directorate officials work with the Working
               Group to develop criteria for measuring success as it relates to UASI goals
               and objectives. The responses allude to measures other than the Woodbury
               Scale Rating System that are used to identify the progress states and urban
               areas make in implementing their homeland security strategies but does not
               identify those measures or how program effectiveness is determined.
               Furthermore, the responses recognize the first time use of the rating system
               and the likelihood that Working Group members were unfamiliar with the
               Scale, unclear as to its use, or uncomfortable with the self-reporting
               mechanism but do not address if or how this situation will be remedied.

Conclusions

               Recent and on-going efforts by the State Administrative Agency and the
               Working Group members and their departmental/agency representatives in
               building an enhanced and sustainable homeland security capacity are
               noteworthy. Specifically:

               •	 Efforts by the State Administrative Agency to implement a statewide
                  online database system and other methods for improving oversight should
                  enhance the monitoring of UASI spending and assets. In addition, it could
                  enable Grants and Training and the State Administrative Agency to follow
                  through with analyses on issues that warrant further verification.

               •	 Progress made at the May 2006 Working Group meeting to distribute
                  funds to all Working Group members should move the Working Group
                  towards the setting of overall funding priorities and accurately matching
                  critical infrastructure throughout the urban area to available funding. This
                  process could replace the previous method of New York City receiving the
                  full 80% of initial UASI funding provided by the state while the remaining
                  members received their funding from the state’s portion.

               •	 On-going and planned efforts by individual agencies, such as the three we
                  visited during the audit, should lead to improved monitoring of on-hand
                  assets and their availability. However, instead of funding three separate
                  databases, funding could be considered for efforts in developing a single
                  urban area-wide database to track and monitor assets.




   Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                            Page 21

Appendix A
Objectives, Scope, and Methodology

                       The audit objectives were to determine whether: (1) the Department of
                       Homeland Security’s (DHS) Office of Grants and Training and the State of
                       New York established effective oversight and program monitoring over the
                       New York City urban area, and (2) UASI preparedness funding enhanced the
                       urban area’s capacity to prevent, respond to, and recover from threats or acts
                       of terrorism.

                       We conducted the audit fieldwork from April 2006 to July 2006 and reviewed
                       federal and state oversight and monitoring of FY 2003, FY 2004, and
                       FY 2005 UASI funds allocated and spent by New York City. We reviewed:
                       (1) UASI appropriations authorized by Public Laws 108-7, 108-11, 108-90
                       and 108- 334; (2) applicable federal and state regulations including Title 28,
                       Code of Federal Regulations, Section 66.40 and OMB Circular A-103, Grants
                       and Cooperative Agreements with State and Local Government, both of which
                       discuss on monitoring and reporting program performance; (3) applicable
                       Grants and Training UASI program guidelines; and (4) various congressional
                       reports and newspaper articles related to the UASI grant program.

                       Audit fieldwork covered four review components:

                           •	 Office of Grants and Training Headquarters in Washington, DC

                           •	 New York State Office of Homeland Security in Albany, NY

                           •	 New York City Offices (Office of Management and Budget and Office
                              of the Criminal Justice Coordinator)

                           •	 New York City Agencies (The Department of Health and Mental
                              Hygiene, Fire Department, and Police Department)

                       During the audit, we (1) reviewed program policies, procedures, and controls
                       used to monitor UASI grants; (2) reviewed program documentation,
                       (3) interviewed responsible officials, and (4) as appropriate to the location
                       visited, physically inspected some of the equipment purchased with UASI
                       funds.

                       Office of Grants and Training Headquarters

                       We researched and obtained background information on UASI grants
                       provided to New York and obtained UASI guidelines and program policies
                       and procedures used in the allocation of these grants. We reviewed program
                       grant files, evaluated Grants and Training monitoring practices and controls
                       over the expenditures of the funds, and reviewed applicable management and
                       monitoring reports. To gain an understanding of oversight and monitoring
                       responsibilities, we interviewed personnel from the External Oversight


           Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                              Page 22
Appendix A
Objectives, Scope, and Methodology


                            Division and the Office of Grants Operations, as well as the preparedness
                            officer for New York State.

                            New York State Office of Homeland Security

                            We obtained background information on the UASI grants from officials at the
                            New York State Office of Homeland Security and interviewed officials from
                            the Division of Criminal Justice Services to identify New York State
                            guidelines and program policies and procedures used to monitor grant
                            progress. We were presented a briefing on the state’s database and reviewed
                            program files used to track UASI funding, evaluated state monitoring
                            practices and controls over expenditures, and reviewed applicable
                            management and monitoring reports. We interviewed financial personnel to
                            gain an understanding of their methodology in reporting expenditures and
                            reviewed a memorandum of understanding between the state and New York
                            City outlining mutual responsibilities for the purpose of providing financial
                            assistance. Finally, we determined that previous audit work performed by the
                            state internal auditors differed from our work in that it only covered the
                            Buffalo urban area. Thus, it was excluded from our review.

                            New York City Offices

                            Since the city’s Office of Management and Budget coordinated with the state
                            regarding financial assistance provided to the city, we obtained background
                            information on the financial operations of the grants and interviewed key
                            personnel to identify the procedures used in administering the grants. We also
                            reviewed program files and interviewed personnel from the Office of the
                            Criminal Justice Coordinator to gain an understanding of their methodology
                            for reporting the financial information. Finally, we visited three city agencies
                            as discussed below.

                            New York City Agencies

                            •	 The Department of Health and Mental Hygiene is responsible for all
                               health-related issues in response to weapons of mass destruction attacks in
                               the New York urban area. The department receives about half a billion
                               dollars a year in grants from various sources and separately tracks each
                               grant. UASI funding comes from the state to the city’s Office of
                               Management and Budget8 that in turn distributes the funds to the
                               department and other city agencies. The department then distributes the
                               funds among 24 different projects.



8
    The UASI grant is the only one that is processed through the City’s Office of Management and Budget.

                Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                         Page 23

Appendix A
Objectives, Scope, and Methodology

                       •	 The Fire Department is responsible for protecting the life and property of
                          the city through its response to fire and medical emergencies.

                       •	 The Police Department is responsible for responding safely and effectively
                          in the event of an attack involving a weapon of mass destruction.

                       For all three city agencies, we visited several locations throughout New York
                       City to review training and exercise records, equipment, and to interview
                       personnel regarding processes or systems in place to track UASI funding and
                       measure grant performance.

                       The audit was conducted under the authority of The Inspector General Act of
                       1978, as amended, and according to the Government Auditing Standards
                       prescribed by the Comptroller General of the United States.




           Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                              Page 24
Appendix B
Applicable Public Laws, Regulations, and Circulars



                    FY 03 UASI I, Consolidated Appropriations Resolution, Public Law 108-7,
                    enacted February 20, 2003. Conference Report 108-10 page 637 (High Threat
                    Urban Area)

                    FY 03 UASI II, Emergency Wartime Supplemental Appropriations Act of
                    2003, Pub. L. 108-11, enacted April 16, 2003

                    FY 04 UASI III, Homeland Security Appropriation Act, Public Law.108-090,
                    enacted October 1, 2003

                    FY 05 UASI IV, Homeland Security Appropriation Act, Pub. L. 108-334,
                    enacted October, 18, 2004

                    Cash Management Improvement Act of 1990 [31 USC 3335 and 31 USC
                    6503]

                    Title 28, Code of Federal Regulations, Section 66.40

                    Title 2, Code of Federal Regulations, Grants and Agreements

                    OMB Circular A-102, Grants and Cooperative Agreements with State and
                    Local Government




        Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                 Page 25

Appendix C
Distribution of New York State 20 Percent Share


                                                             FY 2003 (Part II)     FY 2004               FY 2005
   Amounts represent 20% state’s share (See Table
   1)                                                         $ 27,053,321        $ 15,942,149 $ 44,216,581
   UASI FUND RECIPIENTS
   Port Authority of New York and New Jersey                  $    5,300,387      $      749,945   $ 13,000,000
   Nassau County Office of Emergency Management                    2,000,000          1,000,000       2,000,000
   Nassau County Police Department                                         0                  0            100,000
   Suffolk County Dept. of Fire Rescue and Emergency              2,000,000           1,000,000           2,000,000
   Suffolk County Police Department                                        0                  0            100,000
   Westchester County Dept. of Emergency Services                 2,000,000           1,000,000          2,000,000
   Westchester County Dept. of Public Safety                               0                  0            100,000
   Division Military Naval Affairs/Orange Alert                   3,886,449                   0                  0
   New York State Police                                          2,363,550                   0                  0
   New York Division of Criminal Justice Services                   755,368                   0                  0
   New York State Thruway Authority                                       0                   0          2,750,000
   New York State Department of Motor Vehicles                            0                   0          1,080,000
   Mount Vernon Fire Department                                           0                   0            250,000
   New Rochelle Fire Department                                           0                   0            250,000
   White Plain Public Safety                                              0                   0            250,000
   Yonkers Fire Department                                                0                   0            500,000
   Queens Manhattan DA                                                    0                   0            750,000
   Non-Profit Supplemental                                                0                   0          1,100,000
   UASI Local Grants Uncommitted                                          0                   0            516,599
   Metropolitan Transportation Agency                             6,694,245        16,131,689            5,000,000
   Non-Profit                                                             0                   0          6,311,701
   Other Urban Areas                                              2,053,321           3,369,867          1,441,599
   State UASI                                                             0                   0          6,576,133

Notes:
    1.	 Data provided by State Administrative Agency (not audited).

    2.	 This chart illustrates the breakdown of funding according to the New York State’s 

        discretion. 


    3.	 The amounts listed on line one represent the 20% share of the UASI funding that New York
        State was authorized to maintain by applicable Public Laws (See Appendix B).

    4.	 This chart indicates that New York State distributed its entire share including its 

        Management and Administration portion to all the urban areas. 


            Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                               Page 26
Appendix C
Distribution of New York State 20 Percent Share



    5.	 Westchester, Suffolk, and Nassau counties received $1 or $2 million each year, or $5 million
        total.

    6.	 On face value, it appeared that the state originally retained more then 20%. However in
        some of the cases, such as Metropolitan Transportation Agency and the Port Authority of
        New York and New Jersey, a portion of the funds listed on chart came from earmarked
        funds designated by the Grants and Training guidance. Those earmarked funds were not
        part of the 20% but were shown by the State Administrative Agency as UASI funds. Over
        the years, there have been other types of UASI grants that were agency specific. Based on
        documents reviewed at the State Administrative Agency, we could not determine how much
        came out of the State Administrative Agency’s share or went directly to the two agencies
        from these other funds.




           Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                    Page 27

Appendix D
Program Requirements – Fiscal Years 2003 to 2005

                            Fiscal Year 2003 UASI Part 1. The program required grant
                            recipients to submit: (a) financial status reports within 45 days at the
                            end of each calendar quarter that the award is active, (b) program
                            progress reports within 30 days after the end of the reporting periods
                            of June 30 and December 31 for the life of the award; and
                            (c) financial and compliance audit reports no later than 9 months
                            after the end of the recipient’s fiscal year if the recipients expended
                            $300,000 [now $500,000] or more of federal funds during their
                            fiscal year.

                            The state was required to develop and implement urban area
                            working groups and an urban area assessment and strategy
                            development component to be used by Grants and Training and the
                            working groups to allocate funding and guide delivery of direct
                            services in the form of training, exercises, and technical assistance.
                            The assessment9 was intended to support the development of an
                            urban area homeland security strategy, thus providing a roadmap for
                            sustainable prevention and preparedness and guiding the allocation
                            of grant funds and direct services provided by Grants and Training.

                            Fiscal Year 2003 UASI Part II. The program required the State to
                            sub-grant at least 80% of the total grant award to the selected urban
                            area(s) within 45 days of the receipt of funds and to use up to 20% to
                            complement state assets that provide direct assistance to the urban
                            areas excluding any administrative costs. The reporting
                            requirements were the same as for the FY 2003-UASI Part I
                            program. In addition, recipients could use up to 25% of the gross
                            amount of their award to reimburse for operational expenses,
                            including overtime costs for personnel and costs associated with
                            increased security measures at critical infrastructure sites incurred
                            during the Orange Alerts in 2003.

                            Fiscal Year 2004. The program required the State to sub-grant at
                            least 80% of the total grant award to the selected urban area(s)
                            within 60 days of the receipt of funds. Funding distribution was
                            classified under five categories: 1) planning: 2) equipment
                            acquisitions: 3) training: 4) exercises, and 5) management and
                            administrative. Other than a three percent cap on management and
                            administrative funds, there were no restrictions on allocations of
                            funds across these categories.




9
    The assessment must be coordinated with and developed jointly by the core city, core county/counties, the state, and
    any other jurisdictions designated by the core city, core county/counties, or the state.

                Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                   Page 28
Appendix D
Program Requirements – Fiscal Years 2003 to 2005


                            Fiscal Year 2005. Grants and Training consolidated six programs10
                            in a single grant award in an effort to streamline funding to states
                            and territories. Grants and Training was required to obligate the
                            funds no later than 60 days after the enactment of the Public Law
                            108-334 and states were required to sub-grant at least 80% of the
                            funds to local units of government within 60 days of receiving the
                            funds. The reporting requirements stayed the same as those
                            stipulated for the FY 2004-UASI program.




10
     The Homeland Security Grant Program; Urban Areas Security Initiative; Law Enforcement Terrorism Prevention
     Program; Citizen Corps Program; Emergency Management Performance Grants; and the Metropolitan Medical
     Response Team Program Grants.




                Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                         Page 29

Appendix E
Management’s Responses to the Draft Report




           Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                              Page 30
 Appendix E
 Management’s Response to the Draft Report


 Response to the OIG Draft Report: Federal and State Oversight of the New York City Urban Area
 Security Initiative Grant Program

 Recommendation #1: Review the landlord administrative fee expenditure to determine 

 applicability for funding by the UASI Program and take appropriate actions. 


  Response: The Financial Accountability and Oversight Division (FAO) within FEMA’s Grant
  Programs Directorate will work with the Grantee to acquire, review, and determine eligibility of the
  landlord administrative fee.
________________________________________________________________________

 Recommendation #2: Implement monitoring procedures that assure that grantees and sub-grantees
 use UASI funds to purchase authorized equipment.

 Response: FEMA does not concur with this recommendation as the Grant Programs Directorate
 (GPD) within FEMA has a robust grantee monitoring protocol in place. The Grant Development &
 Administration Division within GPD has been monitoring all 50 States and the Territories on an
 annual basis, and the Urban Area participants every 2 years. Additionally, the Financial
 Accountability & Oversight Division within GPD conducts financial monitoring of FEMA grantees.

  In addition to on-site monitoring, the Grant Development & Administration’s Preparedness Officer
  assigned to New York State has frequent contact with both the State Administrative Agency and
  New York City regarding authorized equipment. For FY 2003 grants, grantees were required to
  submit detailed budget worksheets identifying every item to be purchased with grant funds.
________________________________________________________________________

 Recommendation #3: In coordination with the State Administrative Agency, collect the $1.15 

 million in interest earned on federal grant funds through the fourth quarter of FY 2005 and any 

 interest earned thereafter. 


  Response: FEMA has addressed this issue and the interest has been returned to the Department of
  Health and Human Services as required. No additional corrective action is required for this
  recommendation and it is recommended that it be closed.
________________________________________________________________________

 Recommendation #4: Encourage the State Administrative Agency to:
      •	 Develop an online database to report grant expenditures for use by all urban area sub-
         grantees,
      •	 Use the database to perform periodic independent verifications of expenditures and on-
         hand asset, and
      •	 Provide the Office of Grants and Training access to, or reports from, the statewide
         database to allow for independent monitoring and oversight of expenditures, inventories
         of on-hand assets, and interest collections.


              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program 

                                                       Page 31

 Appendix E
 Management’s Responses to the Draft Report

 Response: FEMA does not concur with this recommendation. It is neither the stated purpose nor the
 desired aim of FEMA to require States to implement specific information management systems.
 However, FEMA does encourage the States to implement the best available means to gather and
 track data.

  Additionally, SAAs are held to their State’s rules and regulations for the responsible administration
  of federal grant funds and implementing processes that will ensure compliance with DHS guidance
  requirements and other Federal rules and regulations. The SAAs are responsible for the direct
  oversight of sub-recipients’ management of DHS passed through funds.
________________________________________________________________________

 Recommendation #5: Require that the New York City Urban Area Working Group 1) establish 

 critical infrastructure funding priorities relative to the urban area as a whole, and 2) rate the 

 preparedness of the urban area when viewed as a single regional entity 


  Response: FEMA does not concur with this recommendation. The New York City Urban Area, like
  the other urban areas in the Country, is required to develop and implement an Urban Area Homeland
  Security Strategy and fund projects accordingly. The New York City Urban Area does have an
  operational Urban Area Working Group, and progress is being made in the implementation of
  memoranda of understanding, joint projects, etc. Additionally, it needs to be emphasized that there is
  a long-standing agreement within New York State such that New York City has received the UASI
  funds and the State has funded the rest of the Urban Area from the State funds.
________________________________________________________________________

 Recommendation #6: Provide the Working Group members clear guidance on the use of the 

 Woodbury Scale Rating System, and work with Working Group members to develop criteria for 

 measuring success as it relates to UASI goals and objectives. 


 Response: FEMA does not concur with this recommendation because too much emphasis has been
 placed on the Woodbury Scale in this Report. It is but one measure used to identify the progress
 States and Urban Areas have made in implementing their Homeland Security Strategies. In addition,
 FY 2006 was the first year the Scale was used as a measure and it is certainly likely that some
 members of the Urban Area Working Group were unfamiliar with the Scale, unclear as to its use, or
 uncomfortable with the self-reporting mechanism included in the Scale and part of the monitoring
 process.




              Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                 Page 32
Appendix F
Major Contributors to This Report


                       Robert J. Lastrico, Audit Division Director
                       John A. Richards, Audit Manager
                       Arona Maiava, Auditor
                       Montul Long, Auditor
                       Venetia Gatus, Auditor
                       Paulette Solomon, Auditor
                       Mark S. Phillips, Referencer




           Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                                    Page 33
Appendix G
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       General Counsel
                       Executive Secretary
                       Under Secretary, Management
                       Chief Financial Officer
                       Chief Information Officer
                       Assistant Secretary, Public Affairs
                       Assistant Secretary, Policy
                       Assistant Secretary, Legislative Affairs
                       Chief Security Officer
                       DHS GAO/OIG Liaison

                       Federal Emergency Management Agency

                       Administrator
                       Acting Assistant Administrator, Grant Programs Directorate
                       Acting Director, Financial Accountability and Oversight Division
                       OIG Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Bureau
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as appropriate




           Federal and State Oversight of New York City Urban Areas Security Initiative Grant Program
                                              Page 34
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
